                                                    NATIONAL SCIENCE FOUNDATION
                                                     OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM
      I,
            .
                                                                                                               11
    II
       /I
TO: IAIGI   File Number: I97060024                                                 Date: 6 June 2002            -

    II
    rl Closeout Memo
Subject:                                                                                    Page 1 of 1
       I\
       1
        1,$extracted
           There was no closeout written at the time this case was closed. The following information was
                    fiom the file in conformance with standard closeout documents.
         /I
         icommitted
           Our office was informed that the subject' was alleged to have gone to court for credit card fraud
                      by getting the Social Security number of another NSF employee. NSF-OIG investigated
         1
         i
        this allegation and confirmed that the subject pled guilty in the Maryland District Court to signing
         I                credit card. A memo of this finding was written to the Division Director.
        (another
            '1
            kccordingly this case is closed.
            'II I                                                                                              Il




                    II
                              Prepared by:                   Cleared by:
                     t
                    't
                             Agent:          Attorney:     Supervisor:     AIGI
     am;!
                    'I
                         I
 ~ i ~ n a t u r&k '
      date:!/I
        i
    11                        MEMOKANI)UM
         i
    *                         Date:       June 26,1997
     I
            It To:                    i     v i s          i    o    n Director, Division of Human Resource
                                          Development

            11
            II
                              From:   p   e     c    i   a   l Agent-in-Charge, Investigations Section,
             i
             I
                                      Office of Inspector General
            It



            i
                              Re:

            4 We received information that a                             n NSF program assistant in the
                                                                                                                           I


                Division of Human Resource Development (HRD), Directorate for Education and Human
             11
                Resources at NSF, had been in court on June 12, 1997, instead of at work, to face charges
I
I
             t of credit card fraud against another NSF employee. We-investigated to determine the
             I!


                ,I
                nature of these charges and the extent to which they related to NSF activities, functions,
                and interests.
                                                                                                                           ii
                il
                 ii
                 1The Prince George's County Maryland District Court confirmed that (had
                 .appeared in court on June 12, 1997 because she had been charged with the following
                 i/~arylandState felonies:
                     I
                 JArticle             Section            Violation            Description
                 '27                  145 (c) (6)        1 count #O 198       Signing another's credit card
                  27                  145 (c) (4)        1 count #2803        UnlawhUy receiving a credit card




                                                                                                              -
                 $7                   145 (d)            1 count #0203        Impersonating listed name on credit card
                         BI                                                   to obtain over $300 worth of goods
                     27               145 (g)            1 count #0206        Using false credit cardfcharging over $300
                         I                                                    worth of goods with false card
                 27              48             2 counts #2520                Obtaining goodslmoney through forgery
                  I  7

                     I

                 In court, she pled guilty to 1 count of #0198, which had alleged t h a t ' d i d , with
                 ihent to defraud J.C. Penney Co., Inc., sign a credit card issued to ,          without
                 der consent, in violation of Maryland Annotated Code Article 27 9 145 (c)(6)."
                 iiceived a sentence of "probation (2 years) before judgment." (see attachment) The
                  1I
                 remaining charges were not prosecuted pursuant to the negotiated agreement.
                              I
            'I\                        -
. rn   -                       '"-                 represented by an attorney, who has not made her available for a meeting.
                                        We have not, therefore, spoken to her about the facts underlying her plea.

                             According to a Nordstrom Visa fraud investigator and a signed statement from the
                             arresting police officer, these charges against n t e m from her arrest on April 26,
                             1997, at J.C. Penney in Hyattsville, MD for purchasing items with a fraudulent credit
                            card. The card had been flagged by the card issuer, Nordstrom V                        W           u
                  1!        that the card had been applied for fraudulently. Nordstrom Visa determined that
                                   whose name and social security number were on the application, did not submit the
                  1         application.              i r n p e r s o n a t e d o v e r the telephone (once on a cellular phone)
                            on two occasions. While waiting at J.C. Penney for the credit card transaction to process,
                           s p o k e to a Nordstrom Visa employee, identifying herself                            and attempted
                            to expedite the credit card approval for the transaction. That day,                              had
                            purchased items totaling $307.99 at J.C. Penney. d m i t t e d to the police offreer
                       I
                       1
                            at the time of her arrest that she. s i g n e d ( l s n e on the back of the credit card.
                                                                                                                                                   I


                       /           We spoke to                   (a former NSF employee1)and confirmed that her name and                           I

                                   social security number were used in I      )     scheme to obtain credit cards unlawfully                       I
                                   and to purchase various items of value. s t a t e d that s                 t likely obtained                    II
                                           personal information through their work together at NSF. There is no indication                         I

                           I
                                   that -had           access to any o i l ) personal information outside of the office.
                                                                                                                                                   i
                           I                 was charged with statefklonies inregiird to only one credit card. However, at
                                   least eight fraudulent credit card applications were submitted i n n a r n e since
                                   December 1996, using the U.S. mails and interstate commerce. These applications were
                                   sent to various credit card issuing financial institutions. At least three of the cards were
                                          before      had a chance to cancel them. r e c e i v e d information that one card
                                                was reported to be "very active".

                               ILn addition to the Maryland statutes referenced above, this evidence demonstrates that
                               m      a      y have violated federal criminal statutes ' and the following NSF employee
                                LI
                                conduct regulation:
                                I/
                               I

                               1
                               i
                                             NSF Personnel Manual 14, Section 143 - NSF Employee Conduct - NSF
                                             employees are expected to adhere to basic standards of integrity and
                                   i         decency. NSF employees must not engage in criminal, dishonest,
                                   \j
                                             immoral, or any other conduct prejudicial to the Government.

                                        omsially retired on disability from NSF on June 12,1997, but had been out of the ofice on the leave
                               donor program since October 1996.
                                t       '                                                                                         h



                                  k2 USC 4 408 Penalties (Using another's social security account number); 18 USC 4 1341 Frauds and
                                 'i
                               *indles; 18 USC 5 1342 Fictitious name and address; 18 USC 5 1343 Fraud by wire, radio, or television;
                               1 8 USC 5 1344 Bankfrcrud; and, 15 USC 5 1644 Fraudulent use of credit cards; penalties. Because the
                               US. Government does not routinely prosecute cases tha             already been prosecuted at the state level, the
       I
                               ~ i ~ a r t m eof
                                              n tJustice has declined to prosecute f h a v e e s e charges.
   I


       I,
                                        'I
    -,   **
s

          )I            =btainl
                                 ' conduct clearly violated section 143. Importantly, she abused her position at
                                               social security number as part of a criminal fraud. Although her
                        "probation before judgment" sentence does not constitute a criminal conviction for legal
                        purposes, this does not change the fact that the crime occurred, and that 0
                        admitted, at her arrest and in court, to having committed that crime.
              (1
                   L


              I    I
                   ,        HRD. We recommend that NSF take appropriate administrative action against 0
              'I




                        I
                       cc:
                       I\
                                      w              Assistant Director, EHR
                                                    Branch Chief, HRM
                         at nsf17
Date :                   10:50 AM




             Close Out

                   The subject of your report to Dr. e           d June
                    her credit card fraud, was issued a notlce of
propos$'a separation on August 18, 1997. On August 21, 1997, subject
sent an\e-mail massage to her boss that she wanted to resign effective
August ~22, 1997. HRM processed her resignation on Friday and notified
DAS to 'heactive her proximity card by COB 8/22/97. They have
confirmtd that action to me this morning. Other than the fact that
         has not out-processed, which places her final check on hold,
            the case is closed at this time.
         1
         I
    case closed.   .                                          t


                                   Forward Header

    ~uthor 1
    Date :

           rI
        Thanks, Linda. You and your staff should congratulate yourselves for
        se4rng that the right                       with minimum disruption and
        publicity for the agency.
           rb
I

                I promised to keep you posted on this case.
                       her resignation. Today is her last
         acgess card will be deactivated tonight.
           LI
